CERTIFICATE OF WORD COUNT
No. TBD
Bruce A. Norvell,
Petitioner,
v.
Secretary of the Treasury; United States Internal Revenue Service,
Respondents.

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Bruce A. Norvell
Petition for Writ of Certiorari contains 7153 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas'DeDeus
December 11, 2020

SCP Tracking: Norvell-P.O. Box 4037-Cover White

1

